26

CERTIFICATE OF SERVICE

I, Frances Kuo, a member of the Bar of this Court, hereby declare that on
March 18, 2021, as required by Supreme Court Rule 29, I served the enclosed
Motion for Leave to Proceed In Forma Pauperis and Petition for Writ of Certiorari,
including the appendix, on the State of Georgia by serving counsel for the State,
Andrew Pinson, by depositing an envelope containing the above documents in the
United States Mail, with first-class postage prepaid, addressed as follows:

Andrew Pinson

Solicitor General

Department of Law

40 Capitol Square, SW
Atlanta, GA 30334

Respectfully submitted,

hanera Lees
ANCES KUO

Counsel of Record

214 Executive Building
125 East Trinity Place
Decatur, GA 30030
Tel: (404) 378-1241
